No. ____________
United States Court of Appeals for the Third Circuit
C.A. No.18-2825
United States District Court
for the District of New Jersey,
No. 2:14-cv-04268 (KM)
IN THE SUPREME COURT OF THE UNITED STATES
DARIUS MURPHY,
Petitioner,
vs.
ADMINISTRATOR EAST JERSEY STATE PRISON,
ATTORNEY GENERAL NEW JERSEY,
Respondents.

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

Mary Gibbons, Esq.
602 Higgins Avenue, #323
Brielle, New Jersey 08730
PH:
Fax:

1-732-647-2020
1-801-365-9209

Attorney for Petitioner
DARIUS MURPHY

QUESTION PRESENTED

The question presented to this Court is whether the
U.S. Court of Appeals for the Third Circuit improperly
applied 28 U.S.C. §2254(d), when it gave statutory
deference to the New Jersey state court’s incorrect
holding, thereby endorsing a mistaken application of
the law and erroneous factual determinations
surrounding Petitioner’s claimed violations of
fundamental due process principles requiring state
disclosure of exculpatory or impeaching material. Brady
v. Maryland, 373 U.S. 83 (1963).

-ii-

LIST OF PROCEEDINGS
State of New Jersey v. Darius T. Murphy
Superior Court of New Jersey
Essex County, Law Division
No. 96-04-01271
State of New Jersey v. Darius Murphy
Superior Court of New Jersey
Appellate Division
Docket #A-2262-97T4
certif. denied, 744 A.2d 1208 (N.J. 1999)
State v. Murphy,
No. A-0707-04T4,
2007 WL 1468592
(N.J. Super. Ct. App. Div. May 22, 2007)
State v. Michael Ricks and Darius Murphy,
No. A-5959-10T3,
2013 WL 11897862
(N.J. Super. Ct. App. Div. March 25, 2013).
State v. Murphy,
No. A-4346-16T2
App. Div. Nov. 21, 2018,
2018 WL 6071579
certif. denied, 200 A.3d 917 (N.J. 2019)
cert. denied, 140 S. Ct. 80(2019)

-iii-

TABLE OF CONTENTS

QUESTION PRESENTED. . . . . . . . . . . . . . . . .

ii

LIST OF PROCEEDINGS . . . . . . . . . . . . . . . .

iii

TABLE OF CONTENTS . . . . . . . . . . . . . . . . .

iv

INDEX OF APPENDICES . . . . . . . . . . . . . . . . .
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . .

v
vi

OPINIONS BELOW. . . . . . . . . . . . . . . . . . . .

2

JURISDICTION. . . . . . . . . . . . . . . . . . . . .

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . .

3

STATEMENT OF THE CASE . . . . . . . . . . . . . . . .

3

(A) New
(1)
(2)
(3)

Jersey State Court Proceedings . .
Trial Court . . . . . . . . . . . .
Direct Appeal . . . . . . . . . .
State Post-Conviction Proceedings .

.
.
.
.

(B) United States District Court Proceedings

.
.
.
.
.

(C) United States Court of Appeals Proceedings

.
.
.
.

3
3
7
8
12
13

STATEMENT OF THE FACTS. . . . . . . . . . . . . . .

17

REASONS FOR GRANTING CERTIORARI REVIEW. . . . . . .

23

CONCLUSION. . . . . . . . . . . . . . . . . . . . .

31

-iv-

INDEX OF APPENDICES

U.S. Court of Appeals for the Third Circuit
Opinion, filed July 7,2021. . . . . . . . .

Appendix A

U.S. District Court for the District of New Jersey
Order and Opinion,filed January 3, 2018 . .

-v-

Appendix B

TABLE OF AUTHORITIES
United States Supreme Court
Brady v. Maryland,
373 U.S. 83 (1963)

. . . . . .

Harrington v. Richter,
562 U.S. 86, 98 (2011)

. . . . . . . . .

Johnson v. Williams,
568 U.S. 289, 301 (2013)
Smith v. Cain,
565 U.S. 73 (2012)

3,5,12,13,15,26,28

. . . . . . . .

15,25,26
15,23,30

. . . . . . . . . . . . . .

28

Wearry v. Cain,
577 U.S. 385 (2016) . . . . . . . . . . . . . .

27

Constitutional and Statutory Provisions

Anti-Terrorism and Effective Death Penalty
Act, Pub.L. No. 104-132, 110 Stat. 1214 (1996). . .

15

28 U.S.C. §1254 . . . . . . . . . . . . . . . . . . .

2

28 U.S.C. §1291 . . . . . . . . . . . . . . . . . . .

2

28 U.S.C. §2253 . . . . . . . . . . . . . . . . . . .

2

28 U.S.C. §2254 . . . . . . . . . . .

-vi-

2,3,15,25,26,28

No. ____________
United States Court of Appeals for the Third Circuit
C.A. No.18-2825
United States District Court
for the District of New Jersey,
No. 2:14-cv-04268 (KM)
IN THE SUPREME COURT OF THE UNITED STATES
DARIUS MURPHY,
Petitioner,
vs.
ADMINISTRATOR EAST JERSEY STATE PRISON,
ATTORNEY GENERAL NEW JERSEY,
Respondents.

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
Petitioner, DARIUS MURPHY1, respectfully prays that
a writ of certiorari issue to review the judgment of
the United States Court of Appeals for the Third
Circuit entered on July 7, 2021.

1

All parties hereto are identified in the caption.
-1-

OPINIONS BELOW
The unpublished opinion of the United States Court
of Appeals for the Third Circuit, for which review is
sought here, is attached as Appendix A.

The Opinion

and Order of the United States District Court for the
District of New Jersey, attached as Appendix B, were
likewise unpublished.
JURISDICTION
This petition follows the appeal by Petitioner to
the United States Court of Appeals for the Third
Circuit, which affirmed the United States District
Court for New Jersey, denying relief sought by his
petition under 28 U.S.C. §2254 for writ of habeas
corpus.

The District Court had jurisdiction over this

first federal petition under 28 U.S.C. §2254.

The

United States Court of Appeals for the Third Circuit
had jurisdiction over the appeal under 28 U.S.C. §1291,
§2253 and Rule 22 of the Federal Rules of Appellate
Procedure.

The jurisdiction of this Court is invoked

pursuant to 28 U.S.C. §1254(1).
-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the affirmative duty of the
state, guaranteed to a defendant as a due process
right, to disclose exculpatory or impeachment evidence.
Brady v. Maryland, 373 U.S. 83 (1963).
STATEMENT OF THE CASE
This petition seeks relief from the decision of the
U.S. Court of Appeals for the Third Circuit affirming
the Order of the United States District Court for the
District of New Jersey, which denied a petition,
brought pursuant to 28 U.S.C. §2254 by a New Jersey
prisoner. That petition sought relief from a conviction
and sentence in the New Jersey state court on which he
remains incarcerated.
(A) New Jersey State Court Proceedings.
(1) Trial Court. Petitioner was charged by
Indictment, together with four other defendants, with
the following crimes arising out of an incident which
occurred on September 7, 1995 in Irvington, New Jersey
and which resulted in the

death of Corey Davis:
-3-

•
•
•
•
•
•
•
•
•
•

conspiracy to commit robbery;
armed robbery;
felony murder;
murder;
armed robbery of Janice Gordon;
terroristic threats;
aggravated assault;
endangering the welfare of a child;
possession of a weapon;
possession of a weapon for an unlawful purpose.

Petitioner and three co-defendants proceeded to trial.
One co-defendant, Victor Parker, had entered into a
favorable plea/co-operation agreement with the state,
which resolved an extensive list of serious, violent
offenses and he testified against the co-defendants.
The jury returned its verdicts on November 21,
1996. Petitioner was convicted on all counts, with the
sole exception of the charge of murder as to which he
was convicted of the lesser included aggravated
manslaughter.
Sentencing, and consideration of post-trial
motions, occurred on January 23, 1997.

Petitioner,

together with three co-defendants, appeared together
for these proceedings. It was during this court

-4-

appearance, that co-defendant Henderson made the
exculpatory statement which lies at the heart of
Petitioner’s claimed violation of Brady v. Maryland,
supra.

Co-defendant Henderson, who had been tried

with Petitioner and who had not testified, at his
allocution gave an impassioned condemnation of Parker’s
testimony and an exoneration of Petitioner and the
other two co-defendants.

Significantly, he revealed

that the
prosecutor’s office had:
“contacted me and tried to get me to
cooperate with them the same as Mr.
Parker did ... but I would have to
testify to the factual basis of what
Mr. Parker was saying. I told them, I
told my lawyer, that I didn’t want to
go to trial with this, that I was
willing to plead guilty, but I would
not testify to the factual basis of
what Mr. Parker said but I would
testify to the factual basis of what
really happened. They disregarded
that. I asked for polygraph because if
there was any doubt about what I was
saying. I asked for a polygraph test
because there are individuals who have
been implicated in this file that
hadn’t have anything to do with this
crime, and there are people who have
something to do with this crime that
-5-

have never been arrested. And I even
told the Prosecutor’s Office that what
they are going to do now that you
convicted three innocent people, what
are they going to do when this guy,
who was with us, who still has the
weapon ... when you find that this man
looked similar to Mr. Murphy, I saying
what is the Prosecutor’s Office going
to do. Are they going to then say we
made a mistake and then ask that these
verdicts be set aside or a new trial
being granted to these individuals?”
In this passionate outburst, Henderson not only
exculpates Petitioner Murphy, but inculpates himself in
court and on the record in the crimes for which he wasin a matter of minutes - to be sentenced to a term of
life without parole. Notable is any effort by Henderson
to minimize his own involvement or to make any plea for
leniency; his only focus in the allocution is the
innocence of his co-defendants and the injustice done
to them.
Prior to Henderson’s revelation that he had
admitted his involvement in the crime, and exonerated
his co-defendants, the Prosecutor’s Office had not
revealed to the defense that he had at some earlier
-6-

time provided this exculpatory evidence.

Indeed, after

hearing this excoriation of the Prosecutor’s Office,
its counsel did not deny that Henderson had provided
this information and did not contradict any portion of
his commentary.
Likewise, even though Petitioner Murphy and his
counsel were present in court at the time of
Henderson’s revelation, counsel made no comment
whatsoever in response to a co-defendant admitting
involvement and exonerating Petitioner. Defense counsel
had made a motion prior to sentencing for a new trial
and judgment notwithstanding the verdict, but made no
effort to renew this motion or to supplement it in
light of Henderson’s disclosure that exculpatory
information had been withheld from the defense.
(2) Direct Appeal.

Petitioner’s counsel raised six

issues on direct appeal, none of which pertained either
to (a) the revelation that Henderson had provided
exculpatory information to the prosecution, which had
not disclosed it to the defense, or (b) the failure of

-7-

trial counsel or the trial court to take any action on
this revelation before the entry of the Judgment of
Conviction. On June 15, 1999, the Superior Court,
Appellate Division, issued its Opinion affirming the
conviction.
Petitioner sought certification to the Supreme
Court of New Jersey, which was denied on
November 5,1999.
(3) State Post Conviction Proceedings.

After

the conclusion of his direct appeal, Petitioner began
the post-conviction review process by filing a Pro Se
Verified Petition for Post-Conviction Relief on July
26, 2000, as well as a Motion for New Trial on October
3, 2000. Petitioner raised, inter alia, the claim that:
“The Prosecutor Violated Defendant’s Right To
Due Process By Failing To Disclose To The
Defense Statements Made By Keith Henderson, As
Part Of His Pitch To Enter Into A Plea
Agreement, That He And Victor Parker Were
Involved In The Charged Crimes And That
Defendant And The Other Defendants On Trial
Were Not Involved.”
Petitioner raised several other issues, including his

-8-

counsel’s failure to investigate an alibi defense,
failure to seek a severance, instructional error and,
in a later filing, a claim arising out of the failure
to strike a juror, claiming she had withheld
significant information. Petitioner presented
Certifications from five potential alibi witnesses who
proffered testimony regarding their activities with
Petitioner on the night of the crime, evidence which
would, of course, have been consistent with, and
supported, the exculpatory evidence that Henderson had
provided to the state in the plea negotiations to which
he referred.
Not only had years passed but, in the interim,
Henderson died.

Mr.

Petitioner amended his Motion for a

New Trial and submitted Certifications from three
additional witnesses who each proffered evidence that
Henderson had told them that his three co-defendants
were innocent.
On August 30, 2004, state post-conviction relief
was denied. With regard to the claims at issue here,

-9-

the Court held:
“Henderson never expressed, either
directly or through counsel, any
indication to the Court that he would
testify on Murphy’s behalf. In view of
that, petitioner’s contention that the
prosecutor violated his due process
rights by failing to disclose Mr.
Henderson’s statements is without
merit because Mr. Henderson never
indicated that he would be willing to
testify for the petitioner.”
Mr. Murphy appealed this ruling to the Appellate
Division which, on May 22, 2007, affirmed in part and
reversed in part, remanding the case for hearing on
certain claims of ineffective assistance of trial
counsel.

With regard to Claim Four, regarding the non-

disclosure of Henderson’s exculpatory statement, the
Court subsumed its consideration of the severance claim
with this Brady claim, holding that “Henderson’s claim
could not have been the basis of a pretrial motion for
severance.” Denial of this claim was also based on the
fact that as to the certifications regarding
Henderson’s exculpatory statements:
“These hearsay statements attributable
to Henderson are not admissible
-10-

because Henderson is now deceased and
no recognized hearsay exception
applies. Therefore, they cannot be the
basis for a new trial motion.”
A PCR hearing was held on September 28, 2010.
Petitioner’s trial counsel, Edward Jerejian,
testified regarding certain of Petitioner’s claims.
While he agreed that plea dispositions had been
discussed by all defendants, the state and the trial
judge, he was not queried, nor did he explain, his
inaction at the Henderson sentencing revelation.
Relief was denied.

The Appellate Division, on March

25, 2013 affirmed the denial of relief. On April 3,
2014, Petitioner’s Petition for Certification was
denied by New Jersey Supreme Court.
In August, 2013, Petitioner re-filed his motion for
a

new trial, based upon Victor Parker’s recantation of

his trial testimony against Petitioner. Parker had
corresponded with Petitioner and provided a
certification which was later submitted, attesting that
he had mistakenly implicated and testified against
Petitioner, wrongly believing that Petitioner was
-11-

Henderson’s “nephew” and involved in the crime that led
to Corey Davis’ death. A hearing was held on August 18,
2016 at which Parker testified and again recanted his
trial testimony. The motion for a new trial was denied
on October 28, 2016.

(B) United States District Court Proceedings.
Following the conclusion of the state court
proceedings, Petitioner sought relief in the U.S.
District Court for the District of New Jersey.

The

District Court entered an Order denying relief in
accordance with its Opinion, both filed on January 3,
2018.

See Appendix B.

The District Court acknowledged

that Petitioner’s “Ground Nine” under Brady v.
Maryland, 373 U.S. 83 (1963),

regarding the non-

disclosure of Henderson’s statements made during plea
discussions with the state, which he revealed at
sentencing, constituted a violation of
Brady, supra.

Addressing this claim, the district

court’s opinion raised the irrelevant, and unsupported,
-12-

assertion that a joint defense was employed by the codefendants, and thus Henderson’s assertion was “surely
available to Murphy at any time.”

The District Court

further noted that there was “no indication” that
Henderson would have testified on behalf of Murphy at
trial.

These are irrelevant considerations in regard

to a Brady claim, however the district court accepted
the state court’s erroneous commingling of Petitioner’s
severance and Brady claims, and thus, endorsed the
state’s incorrect analysis of the Brady due process
claim.
Petitioner’s motion for reconsideration was denied.

©) United States Court of Appeals Proceedings.
On May 17, 2019, a Certificate of Appealability was
granted by the U.S. Court of Appeals for the Third
Circuit as to, inter alia, the following issues:
•

that Petitioner’s rights under Brady v. Maryland,
373 U.S. 83 (1963), were violated by the
prosecution failure to disclose a co-defendant’s
-13-

statement, made in conjunction with plea
negotiations, that Petitioner had not been involved
in the crime; and
•

that Petitioner’s appellate counsel performed
ineffectively by failing to raise this claim on
direct appeal.
Appellate counsel was appointed and briefing

completed.
On July 7, 2021, a non-precedential Opinion was
filed. See Appendix A.

The Court upheld the district

court’s denial of relief, notwithstanding that it
recognized that the state court and the district court
“both misstate the law.” (At Appendix A, p.6, Ftn.4).
In addition, the Court of Appeals premised its opinion
on the mistaken view that:
“because the state courts addressed the merits
of Murphy’s due process claim, our review is
limited by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”) 28 U.S.C.
§2241- §2254.” (Appendix A, p. 7).
However, the state court did NOT address the merits of
the claim that Petitioner raised; rather, it addressed
-14-

the merits of a severance claim, based on the same
factual predicate of the state’s failure to disclose a
statement of a co-defendant. Of course, this changed
the entire dynamic of the analysis.

Absent this

erroneous conclusion that the state court had addressed
the merits of the Brady claim, deference to the state
court ruling

under 28 U.S.C. §2254 of the Anti-

Terrorism and Effective Death Penalty Act, Pub.L. No.
104-132, 110 Stat. 1214 (1996) (“AEDPA”) would not
apply.
Seeming to recognize the fallacy of its opening
premise that the state court addressed the merits of
Petitioner’s Brady based due process claim, the Court
of

Appeals rationalized that :
Even if we were to conclude that the
Appellate Division did not expressly
opine on the merits of Murphy’s Brady
claim, in the absence of an indication
to the contrary, we must presume that
the state court adjudicated the claim
on the merits. Bennett v.
Superintendent Graterford SCI, 886
F.3d 268, 282 (3d Cir. 2018); see also
Johnson v. Williams, 568 U.S. 289, 301
(2013). As Murphy cannot show that the
Appellate Division’s resolution of his
-15-

claim was unreasonable, he cannot
prevail. See Harrington v. Richter,
562 U.S. 86, 98 (2011) (“Where a state
court’s decision is unaccompanied by
an explanation, the habeas
petitioner’s burden [under §2254(d)]
still must be met by showing there was
no reasonable basis for the state
court to deny relief.”). (Appendix A,
p.10, ftn. 7).
The foregoing does NOT address the proper analysis of a
state court decision which did “expressly opine” on the
merits of the Brady claim, but where that express
opinion is incorrect, and indeed unreasonable.

-16-

STATEMENT OF THE FACTS
This case arises from the conviction of Petitioner
for participation in the homicide of Corey Davis in
Irvington, New Jersey during the night of September 6,
1995. Davis lived in an apartment with Janice Gordon,
their son and two other children.
Janice Gordon testified that at around 11:00 pm she
left the apartment to get some food, leaving Davis and
the children there. She was gone for about an hour.
She returned to her apartment where, as she was
removing bags from her car, she was approached by a man
asking for a light. She refused and walked toward
the apartment building. She was grabbed from behind,
told not to scream. The man who had approached her,
together with two other men who were wearing masks,
walked her up the stoop to the apartment building,
asking “where’s he at ?” They entered the apartment
where Mr. Davis was sleeping with his small son in bed
with him. She heard one of the men tell him to get up,
then heard a struggle and a gunshot. One of the men
-17-

asked her “where’s the money at?” She gave him some
money from a drawer and when she said there was no more
money, he pointed a gun and threatened to shoot the
child if she didn’t give more money. She saw Davis on
the floor, got her jewelry box, saying “that’s all I
have.”

She was taken into the bathroom and told not to

come out. When she heard the men leave, she came out
and called 911.
After the police arrived, Ms Gordon gave a
statement at the police department. When asked if she
could identify the men, she said no. She was given a
photo book and picked one picture that “she
didn’t know if that was him” as she relied only on
build and complexion. The photo she selected was not
Petitioner but another individual named Michael Hopper,
telling police that “it could have been him but I
wasn’t for sure” and indicating that he was not the one
who approached her. Over four months later, in January,
1996, after Parker told police that Petitioner was
involved, Ms Gordon selected a picture of Petitioner

-18-

from a photo array. In court, she did not identify him
as one of the men involved in the robbery and death of
Davis, only as the man whose photo she was shown.
Victor Parker testified for the state that he
became involved in committing the crime through codefendant Henderson who he identified in court.
Henderson had told him that Davis was a drug dealer who
would have a large sum of money. He testified that he
knew Petitioner as Henderson’s relative but did not
know his name, only the nickname Dip. Parker testified
that Petitioner initially approached Gordon on the
street and was the one who first grabbed her. Henderson
remained downstairs while Parker went upstairs with
Petitioner and co-defendant Kymeh to carry out the
robbery. He described the robbery of the Davis/Gordon
apartment and the shooting of Davis.
Parker’s agreement to testify arose out of the fact
that he had been arrested in December, 1995, at which
time he reached out to law enforcement to provide
information on the robbery/homicide of Corey Davis. He
-19-

hoped to minimize his sentence on an arrest that he
believed would have led to a life sentence, given his
extensive criminal history. Parker was questioned
regarding the significant benefits of his plea
agreement. Prior to Parker providing information on
this case, police had no forensics or other evidence
identifying Petitioner as having been involved in the
offense, nor was the weapon which fired the fatal shot
ever recovered.

Petitioner was arrested on January 23,

1996 - over four months after Parker told police that
he was involved in the Davis homicide.
None of the four defendants who went to trial
testified, and all were convicted. It was at their
joint
sentencing, on January 23, 1997, before sentence was
imposed on him, that Henderson revealed that Petitioner
and the other two defendants had not been involved in
the Davis robbery/homicide, and that he had refused a
plea agreement that would have required him to testify
falsely against them. The discussion with the

-20-

prosecutor’s office which Henderson recounted in
connection with plea negotiations are the basis of the
Brady claim here. The record here4 is barren of even any
suggestion that those plea discussions did not occur,
or that any disclosure was made to the defense.
Years later, in support of his motion in state
court for a new trial, Petitioner submitted
Certifications

corroborating Henderson’s exculpatory

statements and his outrage at the wrongful conviction
of his three co-defendants who had not been involved in
the crime.

Victor Parker, the only witness against

Petitioner, had contacted Petitioner by letter in 2011,
explaining that he had been mistaken in his testimony
that Petitioner was involved in the crime, a mistake
based on his belief that Petitioner was Henderson’s
“nephew” when they were, in fact, not related. He had
believed that Henderson, who had initiated the idea for
the crime, was sending his “nephew” to participate, and
because he believed Murphy to be that nephew,
identified him as a participant. It was only years
-21-

later that he realized his mistake, and then years more
before admitting it to Petitioner.
Parker’s letter explained his long delay in
recanting his testimony, his need to correct his
mistakes, and his willingness to testify as to the
mistaken identification.

Parker also provided a

Certification regarding his mistaken identification of
Petitioner to an investigator.

-22-

REASONS FOR GRANTING CERTIORARI REVIEW
A review of this case on the merits would afford
this Court a necessary opportunity to clarify the
limitation of the AEDPA deference to state court
adjudication of constitutional claims raised anew in
federal post-conviction proceedings under 28 U.S.C.
§2254.

This Court in Johnson v. Williams, 568 U.S. 289

(2013) recognized the significance of identifying the
scope of deference, as it restricts federal court
review of claims:
“The Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA) restricts the circumstances
under which a federal habeas court may grant
relief to a state prisoner whose claim has
already been “adjudicated on the merits in
State court.” 28 U. S. C. §2254(d).
Specifically, if a claim has been “adjudicated
on the merits in State court,” a federal habeas
court may not grant relief unless “the
adjudication of the claim—
“(1) resulted in a decision that was
contrary to, or involved an unreasonable
application of, clearly established Federal
law, as determined by the Supreme Court of the
United States; or
“(2) resulted in a decision that was based
on an unreasonable determination of the facts
-23-

in light of the evidence presented in the State
court proceeding.” Ibid.
Because the requirements of §2254(d) are
difficult to meet, it is important whether a
federal claim was “adjudicated on the merits in
State court,” and this case requires us to
ascertain the meaning of the
adjudication-on-the merits requirement. This
issue arises when a defendant convicted in
state court attempts to raise a federal claim,
either on direct appeal or in a collateral
state proceeding, and a state court rules
against the defendant and issues an opinion
that addresses some issues but does not
expressly address the federal claim in
question. If this defendant then raises the
same claim in a federal habeas proceeding,
should the federal court regard the claim as
having been adjudicated on the merits by the
state court and apply deference under §2254(d)?
Or may the federal court assume that the state
court simply overlooked the federal claim and
proceed to adjudicate the claim de novo, the
course taken by the Court of Appeals in the
case at hand?”
568 U.S., at 292.
In that case, this Court found that the claim had been
adjudicated on the merits, and gave AEDPA deference to
the state court’s denial of relief.

Other cases have

refined the type of consideration that federal courts
are bound to give in granting deference to state
decisions which are silent as to their basis, or which

-24-

are ambiguous as to their merits consideration.

In

Harrington v. Richter, 562 U.S. 86 (2011), this Court
considered the application of §2254(d) where the state
court was silent as to the reason for its decision.

In

Wilson v. Sellers, (No. 16-6855)__ U.S.__, 138 S.Ct.
1188 (April 17,2018), this Court explained the “look
through” approach called for when necessary to
ascertain the basis of an unexplained state court
decision by considering lower state court decisions.
Again, that is not the problem here.
In this case, the record calls for a different type
of federal review of a state court decision, one which
requires a different analysis.

As discussed above, the

state court subsumed Petitioner’s Brady claim in its
consideration of his separate severance argument and
rejected the Brady claim for reasons applicable to
severance.

The state court was not silent as to its

reasons, nor did it give an ambiguous reason for its
action; rather, the state court was simply wrong or
careless in conflating the Brady claim with the
-25-

severance claim, and the lower courts here were wrong
to allow it.

Even though federal relief is limited,

and deference to the state review is expansive,
nevertheless, §2254(d) “ preserves authority to
issue the writ in cases where there is no possibility
fairminded jurists could disagree that the state
court's decision conflicts with this Court's
precedents.” Richter, 562 U.S. 86, at 102 (2011).

The

contours of that preserved authority is what this Court
can address and explain by granting the instant
petition.
The Court of Appeals recognized that both the state
court and the District Court had misstated the legal
principles underlying Brady.

The recognition that the

state court had relied on an incorrect legal analysis
of a fundamental due process principle should have
triggered a denial of §2254(d) deference.

Indeed, a

grant of certiorari in this case would afford an
opportunity to clarify that such statutory deference is
not unlimited. The state court’s misstatement of such

-26-

basic legal principles surely can be recognized as
unreasonable and thus undeserving of deference.
The failure of the state courts - and indeed the
lower federal courts - to correctly analyze
Petitioner’s Brady claim has resulted in a failure to
consider the full dimensions of the due process
deprivation which Petitioner suffered.

For example,

the Court of Appeals did not consider this Court’s
decision in Wearry v. Cain, 577 U.S. 385 (2016),
emphasizing that Kyles v. Whitley, 514 U.S. 419 (1995)
requires a “cumulative evaluation” of the materiality
of wrongfully withheld evidence.

In Wearry, the

evidence against the defendant was limited and this
Court pointed out that the only burden of the defendant
is to establish that the new evidence is sufficient to
undermine confidence in the verdict.

Just as in

Wearry, the evidence against Petitioner was a “house of
cards” built on the jury crediting Parker’s testimony.
There was no victim identification, no forensic
evidence, no recovered weapon, no ballistics.

-27-

Only

Parker’s testimony.

No analysis was considered by

either the state courts or the federal post-conviction
court to assess the significance of Henderson’s
statement against the strength (or lack thereof) of the
evidence against Petitioner. See, Smith v. Cain, 565
U.S. 73 (2012)
(when the undisclosed material was directly
contradictory to the only evidence against the
defendant, materiality was satisfied).
While the Court of Appeals credited the state
court’s conclusion that Henderson’s statement was
“equivocal and vague”2 it was nevertheless directly
contradictory to the testimony of the only witness
against Petitioner and thus satisfied the materiality
requirement of Brady.
The further impact of the erroneous application of
28 U.S.C. §2254(d), and the attendant deference to

2

These are characterizations, not facts. The
Court of Appeals simply adopted these
characterizations, rather than identifying any facts on
which they might have been reasonably based.
-28-

state factual conclusions, was the unavailability of
any evidentiary hearing on the federal petition.

There

was no sworn testimony from the prosecution or the
investigators/police regarding when Henderson had his
plea discussions with the state and gave his statement
exculpating Petitioner. In the ordinary course, plea
discussions would occur before trial and surely before
verdict. While there was colloquy regarding plea
discussions being held “on the record” there was never
any transcript or any other record produced by the
state in the more than twenty five years of litigation
to establish the time and nature of such discussions.
Indeed, there was not so much as a sworn statement from
the state regarding any such discussions,
notwithstanding the assertion that they were on the
record.
A grant of certiorari here would allow this Court
to establish - and arguably limit - appropriate
deference to state court proceedings based on
misstatements of the law, and lower court reliance on

-29-

conclusory characterizations of facts rather than on
proceedings to establish relevant facts surrounding the
claimed denial of fundamental constitutional rights.
As pointed out in Johnson, the requirements of
§2254 are difficult to meet for a Petitioner seeking to
avoid deference to a state court decision;
consequently, the vast majority of those seeking
federal post-conviction relief are unsuccessful in that
effort.

If, in fact, the statute is not meant to

completely preclude a denial of such deference, this
Court should take this opportunity to reject the
propriety of deference to a state proceeding that was
based on a misstatement of law and
fact finding.

a failure of any

The district court and the Court of

Appeals have failed to reject the flawed state
proceedings; this Court should grant certiorari to
define the appropriate, statutory limitations of
deference.

-30-

Appendix A

Case: 18-2825

Document: 98

Page: 1

Date Filed: 07/07/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 18-2825
______________
DARIUS MURPHY,
Appellant
v.
ADMINISTRATOR EAST JERSEY STATE PRISON;
ATTORNEY GENERAL NEW JERSEY
______________
Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2-14-cv-04268)
District Judge: Hon. Kevin McNulty
______________
Submitted under Third Circuit L.A.R. 34.1(a)
July 6, 2021
______________
Before: SHWARTZ, KRAUSE, and FUENTES, Circuit Judges.
(Filed: July 7, 2021)
______________
OPINION*
______________
SHWARTZ, Circuit Judge.

*

This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.

Appendix A

Case: 18-2825

Document: 98

Page: 2

Date Filed: 07/07/2021

Following a jury trial, Darius Murphy was convicted of robbery, felony murder,
and other crimes. He asserts that he is entitled to a writ of habeas corpus under 28 U.S.C.
§ 2254 based upon an alleged violation of his due process rights under Brady v.
Maryland, 373 U.S. 83 (1963). Because Murphy has not demonstrated that the
prosecution was aware of a co-defendant’s allegedly exculpatory statement, his due
process rights under Brady were not violated and we will therefore affirm.
I
One evening, a man approached Janice Gordon outside her home and asked her for
a cigarette lighter. She refused, and the man grabbed her from behind as she walked up
the steps to her apartment building. He placed a gun to her neck, and two additional men
approached and demanded the keys to the building. She let them into the building and
the second-floor apartment where she lived with her boyfriend, Corey Davis, as well as
her children and nephews. Two of the men entered Davis’s bedroom. Gordon then heard
a gunshot, which killed Davis. One of the men screamed, “Where’s the money at?” and
Gordon gave him her jewelry and cash. App. 379-80. Gordon testified that at least one
other man was involved because she could hear a voice yelling downstairs as the
perpetrators left her apartment. She later identified Murphy in a photo array as
resembling the man who first approached her on the street, but she testified she was not
sure it was him.
Following his arrest for another crime, Victor Parker told prosecutors about his
role and the roles of others in the Davis robbery and murder. A grand jury thereafter
2

Appendix A

Case: 18-2825

Document: 98

Page: 3

Date Filed: 07/07/2021

returned an indictment charging Keith Henderson, Michael Ricks, Keith Koonce, Parker,
and Murphy with various crimes, including robbery and murder.
Parker pleaded guilty, and Henderson, Ricks, Koonce, and Murphy proceeded to
trial. At trial, Parker testified that Henderson planned the robbery. Parker’s description
of the events largely matched Gordon’s, as he explained that: (1) Murphy approached
Gordon on the street outside her apartment and grabbed her; (2) he, Murphy, and Koonce
entered the apartment: (3) Koonce and Murphy were in the bedroom with Davis when the
shot was fired; (4) Koonce ran out after the shooting and Henderson came upstairs to
search for money, threaten Gordon, and complete the robbery; and (5) Ricks was the
getaway driver. The jury found Murphy guilty of conspiracy to commit robbery, firstdegree robbery of Davis and Gordon, felony murder, aggravated manslaughter, making a
terroristic threat, aggravated assault, endangering the welfare of a child, unlawful
possession of a firearm, and possession of a weapon for an unlawful purpose, but found
him not guilty of murder.
At the joint sentencing hearing, Henderson stated that the prosecution “contacted
[him] and tried to get [him] to cooperate” and to corroborate Parker’s testimony. App.
144. Henderson stated that he “told [the prosecution], [he] told [his] lawyer, that . . . [he]
was willing to plead guilty,” but “would not testify to the factual basis of what Mr. Parker
said” since it differed from “what really happened.” App. 144. He then told the trial
court that there were “individuals who have been implicated in this [trial] that [didn’t]
have anything to do with this crime, and there [were] people who have something to do
3

Appendix A

Case: 18-2825

Document: 98

Page: 4

Date Filed: 07/07/2021

with this crime that [were] never arrested,” App. 144, and he indicated that another man
who was actually involved and still had the murder weapon “looked similar to Mr.
Murphy,” App. 145.1
The Appellate Division affirmed Murphy’s conviction and the New Jersey
Supreme Court denied review. State v. Murphy, 744 A.2d 1208 (N.J. 1999) (Table).
Murphy filed a petition for post-conviction relief (“PCR”) in the New Jersey
Superior Court, arguing, among other things, that the prosecution violated his due process
rights by failing to disclose Henderson’s allegedly exculpatory statements that Henderson
claimed he made during plea negotiations and that his appellate counsel was ineffective
for failing to raise this issue on direct appeal.2
The PCRA Court denied relief. During the hearing on the petition, the prosecutor
and the Court reviewed the plea negotiations. Both the prosecutor and the PCRA Court
explained that virtually all plea negotiations occurred on the record and the prosecutor
stated that Henderson was unwilling to provide any details about the crime unless he
received his preferred plea offer. D. Ct. ECF No. 12-14 at 35-36. The PCR Court echoed
that Henderson was unwilling to implicate anyone else. Id. at 37. The prosecutor also
stated that she “had no factual statements from any of the defendants.” Id. at 37-38. On

1

Murphy was sentenced to thirty years’ imprisonment. Henderson was
sentenced to life without parole. He died in February 2000.
2
Murphy also filed a motion for a new trial, claiming that Henderson’s statement
at the sentencing hearing was newly discovery evidence. He attached certifications from
Henderson’s mother, brother, and cousin indicating that Henderson told them that his codefendants, including Murphy, were not involved in the crimes.
4

Appendix A

Case: 18-2825

Document: 98

Page: 5

Date Filed: 07/07/2021

appeal, the Appellate Division noted that the PCR Court did not “directly address[]”
Murphy’s due process argument regarding Henderson’s statement, but a new trial was
nonetheless not warranted on this issue because Henderson’s statements at sentencing
were “equivocal and vague,” and there was no indication that Henderson would have
testified on Murphy’s behalf. App. 282-83.3 It remanded for a hearing on whether
Murphy’s trial and appellate attorneys were ineffective on other issues.
On remand, the PCR Court denied relief, concluding that trial counsel was not
ineffective but did not address appellate counsel’s effectiveness. The PCR Court,
however, did repeat its recollections about the plea negotiations and Henderson’s
statements at sentencing, explaining that there was no discussion by Henderson about his
co-defendants prior to Henderson’s sentencing statement and that the focus of the plea
discussions was the amount of time each would face under the various offers conveyed.
D. Ct. ECF No. 12-15 at 4-5. The PCR Court then asked counsel if their recollections
were consistent with the Court’s. Notably, Henderson’s counsel stated that he was “as
surprised as anyone when Mr. Henderson, at the late date, at sentencing for the first time,
as I remember it now . . . tried to alibi every other defendant. . . . I don’t remember him
ever saying [that] to me . . . .” Id. at 6.

3

Additionally, the Appellate Division concluded that the certifications of
Henderson’s mother, brother, and cousin contained inadmissible hearsay statements
which could not justify a new trial “because Henderson is now deceased and no
recognized hearsay exception applies.” App. 283.
5

Appendix A

Case: 18-2825

Document: 98

Page: 6

Date Filed: 07/07/2021

The Appellate Division affirmed, again addressing only trial counsel’s
effectiveness on non-Brady issues, and the New Jersey Supreme Court denied review.
State v. Ricks, 88 A.3d 191 (N.J. 2014) (Table).
Murphy filed a pro se federal habeas petition arguing, among other things, that the
prosecution violated his due process rights under Brady by failing to disclose
Henderson’s statements, and that his appellate counsel rendered ineffective assistance by
failing to raise this argument on direct appeal. The District Court denied relief. As to the
Brady claim, the District Court explained that there was no evidence that the statement
was disclosed to and suppressed by the prosecution. Additionally, the Court reasoned
that the information was available to Murphy because he and Henderson were codefendants with a joint defense strategy at trial.4 As to the ineffective assistance claim,
the Court found that Murphy’s appellate counsel was not ineffective for failing to raise a
meritless Brady claim, and that, in any event, Murphy could not demonstrate prejudice.
Murphy appealed. We granted a certificate of appealability “as to Murphy’s claims that
(1) his rights under Brady . . . were violated because the prosecution did not disclose . . .

4

The state courts’ reliance on the admissibility of Henderson’s statements to his
family, see supra n.3, and the District Court’s reliance on a “joint defense” strategy
between Murphy and the other defendants, App. 46-47, both misstate the law. “[T]he
duty to disclose under Brady is absolute—it does not depend on” whether the evidence
was admissible, Dennis v. Sec’y Pa. Dep’t of Corr., 834 F.3d 263, 290, 308 (3d Cir.
2016) (en banc), or “defense counsel’s actions,” id. at 290. On this latter point, “the
concept of due diligence plays no role in the Brady analysis,” so any information sharing
between Murphy and his co-defendants would not relieve the prosecution of its duty to
disclose Brady material. Id. at 291 (quotation marks omitted).
6

Appendix A

Case: 18-2825

Document: 98

Page: 7

Date Filed: 07/07/2021

Henderson’s statement that Murphy had not been involved in the crime; and (2) his
appellate counsel performed ineffectively by failing to raise this claim on direct appeal.”
App. 7.
II5
A
Because the state courts addressed the merits of Murphy’s due process claim, our
review is limited by the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), 28 U.S.C. §§ 2241-2254. AEDPA restricts a federal court’s power to grant
a writ of habeas corpus when a state court has already denied the same underlying claim
on the merits, unless the state court’s adjudication of that claim “resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States,” or “resulted in a
decision that was based on an unreasonable determination of the facts in light of the
evidence presented” to the state court. 28 U.S.C. § 2254(d)(1)-(2); Blystone v. Horn, 664
F.3d 397, 417 (3d Cir. 2011). We defer to a state court’s factual determinations because,
under § 2254(e)(1), such determinations are presumed to be correct, and a habeas
petitioner bears the burden of rebutting this presumption by clear and convincing

5

The District Court had jurisdiction under 28 U.S.C. § 2254. We have jurisdiction
under 28 U.S.C. §§ 1291 and 2253. Because the District Court did not hold a hearing,
our review is plenary. Dennis, 834 F.3d at 280.
7

Appendix A

Case: 18-2825

Document: 98

Page: 8

Date Filed: 07/07/2021

evidence. 28 U.S.C. § 2254(e)(1); see also Werts v. Vaughn, 228 F.3d 178, 196 (3d Cir.
2000).
B
To prove a due process violation under Brady, a petitioner must establish three
elements. “First, the evidence must be favorable to the accused, either because it is
exculpatory, or because it is impeaching. Second, it must have been suppressed by the
State, either willfully or inadvertently. Third, the evidence must have been material such
that prejudice resulted from its suppression.” Dennis v. Sec’y Pa. Dep’t of Corr., 834
F.3d 263, 284-85 (3d Cir. 2016) (en banc) (quotation marks and citation omitted). The
“touchstone of materiality is a reasonable probability of a different result.” Kyles v.
Whitley, 514 U.S. 419, 434 (1995) (quotation marks omitted).
Henderson’s statement favored Murphy, in that it could have impeached Parker’s
testimony. Murphy, however, has offered no evidence that the prosecution was aware of
the statement before trial. At sentencing, Henderson informed the court:
I told them, I told my lawyer, that I didn’t want to go to trial with th[ese
charges], that I was willing to plead guilty, but I would not testify to the
factual basis of what Mr. Parker said but I would testify to the factual basis
of what really happened.6
6

Henderson also said:

And I even told the Prosecutor’s Office that what are they going to do now
that you convicted three innocent people, what are they going to do when this
guy, who was with us, who still has the weapon, when he gets locked up the
same way Mr. Parker got locked up and he comes to the Prosecutor’s Office
and he want[s] to say make a deal and when he makes this deal, he’s going
to tell him that he has the murder weapon, he’s going to tell them the same
8

Appendix A

Case: 18-2825

Document: 98

Page: 9

Date Filed: 07/07/2021

App. 144. The Appellate Division concluded that this statement was “equivocal and
vague.” App. 283. This conclusion does not reflect an unreasonable view of the facts.
Indeed, all of the facts in the record support the conclusion that the prosecution did
not have statements from Henderson exculpating his co-defendants. First, in a hearing
before the PCR Court, the prosecution represented that they “had no factual statements
from any of the defendants charged in the homicide.” D. Ct. ECF No. 12-14 at 37-38.
Second, Henderson’s counsel stated that he was “surprised” when Henderson, for the first
time at sentencing, sought to exculpate his co-defendants. D. Ct. ECF No. 12-15 at 6.
Third, the PCR Court, which was also the trial court, stated that almost all plea
negotiations were on the record and there was no discussion by Henderson about the
nature, extent, or participation of his co-defendants. Id. at 5. Based on this evidence, the
record demonstrates that the prosecution did not know, and hence could not have
suppressed, Henderson’s statements. See United States v. Joseph, 996 F.2d 36, 39 (3d
Cir. 1993) (explaining that, to demonstrate suppression, we apply an objective standard
and “consider whether the prosecutor knew or should have known of the materials”).
Accordingly, Murphy cannot establish a Brady violation. Cf. United States v. Tavera,

thing that Mr. Parker told them, the things that went on and then when you
find that this man looked similar to Mr. Murphy, I’m saying what is the
Prosecutor’s Office going to do[?] Are they going to then say we made a
mistake and then ask that these verdicts be set aside or a new trial be[] granted
to these individuals?
App. 144-45.
9

Appendix A

Case: 18-2825

Document: 98

Page: 10

Date Filed: 07/07/2021

719 F.3d 705, 710-14 (6th Cir. 2013) (finding a Brady violation where the prosecution
failed to turn over co-defendant’s potentially exculpatory statements made during “two
debriefings with . . . [the prosecutor] and agents involved in the sting” conducted “[i]n the
week before [the defendant’s] trial”). Because Murphy’s Brady claim fails, he cannot
establish prejudice from his appellate counsel’s failure to raise it on direct appeal. See
Strickland v. Washington, 466 U.S. 668, 689-93 (1984).7

7

Even if we were to conclude that the Appellate Division did not expressly opine
on the merits of Murphy’s Brady claim, in the absence of an indication to the contrary,
we must presume that the state court adjudicated the claim on the merits. Bennett v.
Superintendent Graterford SCI, 886 F.3d 268, 282 (3d Cir. 2018); see also Johnson v.
Williams, 568 U.S. 289, 301 (2013). As Murphy cannot show that the Appellate
Division’s resolution of his claim was unreasonable, he cannot prevail. See Harrington v.
Richter, 562 U.S. 86, 98 (2011) (“Where a state court’s decision is unaccompanied by an
explanation, the habeas petitioner’s burden [under § 2254(d)] still must be met by
showing there was no reasonable basis for the state court to deny relief.”). Even
assuming the prosecution knew of and suppressed Henderson’s pretrial statement,
Murphy has not demonstrated materiality because it is not reasonably probable that the
information would have yielded “a different result.” Kyles, 514 U.S. at 434 (quotation
marks omitted). First, Henderson’s statement conveys that “there are individuals who
have been implicated” who played no role and that other wrongdoers were not arrested,
App. 144, and that law enforcement may find someone who looks like Murphy. Parker
was cross-examined about who participated in the crime and his motive for testifying.
Henderson’s statement at the sentencing hearing that others were the perpetrators would
not have changed how the cross-examination would have proceeded. See, e.g., Lambert
v. Blackwell, 387 F.3d 210, 253 (3d Cir. 2004) (explaining that “[s]uppressed evidence is
not material when it merely furnishes an additional basis on which to impeach a witness
whose credibility has already been shown to be questionable” (quotation marks omitted)
(quoting United States v. Amiel, 95 F.3d 135, 145 (2d Cir. 1996))). Second, Gordon
corroborated Parker’s account, which the jury’s verdict shows it credited. For this
additional reason, Murphy has not demonstrated that “there was a reasonable probability
of a different result,” Kyles, 514 U.S. at 434, had Murphy showed that Henderson made
his statement pretrial and had it been disclosed.
10

Appendix A

Case: 18-2825

Document: 98

Page: 11

Date Filed: 07/07/2021

III
For these reasons, we will affirm the District Court’s order.

11

Appendix A

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

Appendix B

